         Inspector General of the
          Department of Defense

                  Vision

  "One Professional Team of Inspectors,
 Auditors, and Investigators, Inspiring by
Paradigm Both a Culture of Accountability
 and Intelligent Risk-Taking Throughout
       the Department of Defense"
                                           FOREWORD

        As "independent and objective units" within their respective component (Inspector General
Act, Section 1), Inspector General offices within the Department of Defense are unique
"measuring" assets for their respective commanders--properly deployed, a part of the Secretary of
Defense’s leadership and management solution. "An IG must have the commander's total
confidence and trust. To be effective, IGs must understand the commander's goals, expectations,
standards, vision, operating methods, and personality. The IG must become the commander's
confidant, that is, the individual with whom the commander can discuss, in complete trust, any
aspect of the command, in wartime as well as peacetime" (Army Regulation 20-1).

        As this report is being written, the efforts of the Department of Defense are shifting from
the prosecution of an armed conflict to securing the peace and rebuilding Iraq. In both endeavors,
the role of the Inspector General today remains as the same as it was when the continental
Congress in 1777 determined the appointment of inspectors general as “essential to the promotion
of discipline in the American army, and to the reformation of the various abuses which prevail in
the different departments.”

        Another legacy, and one that stems from General von Steuben, is the importance to “teach
and train.” As a result, a series of articles has been initiated to define the salient characteristics of
the Inspector General concept. In that regard, the recent Journal of Public Inquiry, published by the
President’s Council on Integrity and Efficiency, contained an article titled “The Enduring Legacy
of Inspector General von Steuben” that noted the role of an Inspector General as “an independent
extension of the eyes, ears, and conscience of the Commander” who must follow the cardinal
virtues of: integrity and efficiency, discipline and accountability. In addition, an article titled
“Inspector General Investigations: ‘Dogged Pursuit of the Truth,’” has been issued that stresses the
broad role of investigations as a tool to assist leadership in “assessing and improving standards and
policies governing conduct and decision making” rather than as a tool narrowly crafted to obtain
prosecutions in only criminal matters.

        Secretary Rumsfeld in his “Bureaucracy to Battlefield” speech on September 10, 2001,
correctly identified a core mission underlying the Inspector General concept by stating “The old
adage that you get what you inspect, not what you expect, or put differently, that what you measure
improves, is true. It is powerful, and we will be measuring.” Today, this office adheres to that
model in efforts to identify and prevent waste, fraud, and abuse of defense resources.

        Recent efforts to fulfill the Inspector General mission include:

        •   Strategic Management of Human Capital: Hiring two new deputy Inspectors General,
            Richard Race for Investigations and Jerry Hansen for Inspections and Policy, along with
            RADM Larry Poe, USNR, for Intelligence.

        •   Competitive Sourcing: This office oversees the integrity of the Department of Defense’s
            participation in the government-wide Competitive Sourcing Initiative, aka A-76 Public/
            Private Competitions. Last quarter, an independent evaluation by another federal IG of a
    $31.8 million A-76 accounting error, has led to a number of proactive improvements to the
    oversight of--and improvements in--DoD competitive sourcing initiatives.

•   Improved Financial Performance: As a result of a proactive joint effort along with the
    Office of Comptroller the recently-released government-wide financial statement included
    the following accolade: “The Secretary of Defense recently included improving DoD’s
    financial management as one of his top 10 priorities, and DoD has already taken a number
    of actions intended to address its serious financial management problems.”

•   Improved IG Support to Combatant Commanders: We recently completed the initial phase
    of our global Human Trafficking Assessment through conducting inspections in Korea and
    have offered, "support forward" to deploy joint IG assets in the Central Command area of
    responsibility and Operation Iraqi Freedom.

•   Public Confidence in Integrity of DoD Programs and Operations: Through proactive
    involvement in high-profile allegations of impropriety including the allegations of sexual
    assault at the Air Force Academy, this office has endeavored to ensure that the focus of this
    Department is not distracted from its core mission of deterring, fighting, and winning wars.
Semiannual Report to the Congress                                                                                     Table of Contents


                                                TABLE OF CONTENTS

                                                                                                                                      Page

SIGNIFICANT ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   1
     Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
     Criminal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             1
     Special Inquiries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      10
     Departmental Inquiries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           11
     Inspections and Policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           11
     Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   16
     Significant Open Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       23
     OIG DoD Testimony/Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       24
     Intelligence Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          25

APPENDICES
A.   Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . .                                   27
B.   OIG DoD Audit Reports Issued Containing Quantifiable Potential . . . . . . . . . . . . .                                         37
        Monetary Benefits
C.   Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          39
D.   Contract Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                41
E.   Status of Action on Significant Post-Award Contract Audits . . . . . . . . . . . . . . . . . .                                   43

FIGURES
1.   Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
2.   DoD Total Senior Official Cases - FY 99 - FY 02 . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
3.   Nature of Substantiated Allegations Against Senior Officials
        During 1st Half FY 03 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12




                                                                      i
Table of Contents                                    Semiannual Report to the Congress




                    This page left blank intentionally




                                    ii
                                                            Semiannual Report to the Congress




SIGNIFICANT ACTIVITIES

INTRODUCTION     This report summarizes the significant activities of the Office of the
                 Inspector General of the Department of Defense (OIG DoD) components and
                 their work with other members of the DoD oversight and federal law
                 enforcement communities.

CRIMINAL         The four Defense Criminal Investigative Organizations (DCIOs) continue to
INVESTIGATIONS   combat crime affecting the Department of Defense (DoD). The Defense
                 Criminal Investigative Service (DCIS) has focused investigative priorities on
                 terrorism, product substitution, computer crimes, technology protection,
                 public corruption, and major thefts. The U.S. Army Criminal Investigation
                 Command (USACIDC), the Naval Criminal Investigative Service (NCIS),
                 and the Air Force Office of Special Investigations (AFOSI) also investigate
                 procurement fraud, but have changed their focus to concentrate on terrorism,
                 force protection and crimes affecting major weapons systems within their
                 respective Military Departments. The AFOSI and NCIS also conduct
                 counterintelligence investigations and operations. The DCIOs have
                 continued to support anti-terrorism investigations and participate as members
                 of Joint Terrorism Task Forces (JTTFs). The DCIOs work cooperatively to
                 investigate cases involving more than one Service.

                 Monetary recoveries and fines related to all criminal investigations through-
                 out the DoD totaled more than $135 million. Figure 1 (page 2) displays other
                 statistical results achieved by the four investigative organizations during the
                 semiannual reporting period. The following are examples of significant
                 cases.

 Terrorism       Presidential Decision Directive 39 (PDD 39) states “it is the policy of the
                 United States to deter, defeat, and respond vigorously to all terrorist attacks
                 on our territory and against our citizens, or facilities….”

                 After the tragic events of September 11, 2001, the OIG DoD moved to
                 enhance law enforcement efforts in the prevention of terrorist attacks. The
                 DCIS special agents are working at JTTF locations, in addition to doing their
                 traditional work of ensuring our warfighters have the best and safest equip-
                 ment to accomplish their missions. The DCIS currently has agents assigned
                 full time to JTTFs in different locations, while additional agents are assigned
                 on a part-time or as-needed basis, to support the JTTFs around the country.

                 During this reporting period, the OIG DoD developed and distributed
                 Indicators of Potential Terrorist Threats brochures to 18 DoD components

                                        1
Semiannual Report to the Congress




                            Judicial and Administrative Actions

                                        Convictions       Indictm ents   Debarm ents Suspensions

                    Terrorism                4                29

                    Procurem ent/
                                             80               127
                    Health Care Fraud
                                                                             97          73
                    Other                   228               215


                    Total                   312               371




                                                   Figure 1

                            including the Defense Intelligence Agency, the National Reconnaissance
                            Office, and the Military Criminal Investigative Organizations. Other copies
                            were sent to the Central Intelligence Agency, Federal Bureau of Investiga-
                            tion, and the Military Department security force elements. The brochures
                            alert individuals to activities or conditions that may indicate terrorist threats.

                            In a terrorism related case, an Army enlisted member’s spouse was convicted
                            of communicating terrorist threats and sentenced to 8 months confinement
                            for telephoning the Fort Polk Main Post Exchange and falsely reporting that
                            there was anthrax in the building. Another enlisted member’s spouse was
                            convicted of conspiracy and sentenced to 1 day confinement for allowing the
                            other spouse to knowingly use her telephone calling card to communicate the
                            threat. As a result of the threat, the Exchange was forced to close, thus losing
                            sales revenue and incurring lost wages and costs of searching and cleaning
                            the building. In addition to the sentences, each spouse was ordered to make
                            restitution in the amount of $237,000. After serving their confinement, both
                            will be placed on supervised release for 5 years.

 Product Substitution       Counterfeit materials, and other forms of unauthorized substitution of
                            products, are one of the DCIOs’ highest priorities for detection, investigation,
                            prosecution, and deterrence. These efforts and cases are all the more impor-
                            tant to support Operation Iraqi Freedom.

                                                      2
                                                            Semiannual Report to the Congress




                  Two “employees” of a fictitious DoD contractor in California were each
                  sentenced to pay $11,949 in restitution, a $5,000 fine, a $100 special assess-
                  ment fee, to perform 100 hours of community service, and to serve 24
                  months of supervised probation. The employees, while operating the
                  fictitious company, submitted false certificates of conformance with
                  components they caused to be delivered to the U.S. Army. The parts sub-
                  mitted by the company were “bearing races” used within the main rotor
                  system of the Cobra attack helicopter, failure of which could cause
                  catastrophic loss to the aircraft and crew.

                  The president of a New York tool and die company pled guilty to a single
                  count of providing a false certification to the DoD and was sentenced to
                  1 year probation. The company furnished non-conforming C-141 drag brace
                  assemblies, CH-53 helicopter fuel shutoffs, C-130 shoe assemblies, and air-
                  craft carrier catapult system grab assemblies. A special condition of his
                  probation was that he had to restore the facing of the shoe assemblies to DoD
                  specifications.

                  Three former co-owners of a marketing company were sentenced in Ohio
                  following an investigation of their role in selling defective and counterfeit
                  avionics antennae used by the DoD and the commercial aircraft industry.
                  Two of the owners pled guilty to conspiracy to commit wire and mail fraud.
                  They were sentenced to 3 years supervised release and ordered to pay $2,800
                  in restitution and a $100 special assessment fee. The third owner pled guilty
                  to misprision of a felony and was sentenced to 3 years supervised release and
                  ordered to pay $2,800 in restitution and a $100 special assessment fee. The
                  U.S. District Court Judge also ordered the defendants to refrain from any
                  involvement with the aircraft industry during the 3-year period of super-
                  vision.

Computer Crimes   Criminal activity in the cyber environment continues to grow with viruses,
                  denial of service attacks, and hacker attacks being the most notorious crimes.
                  While examining DoD computers for evidence in other criminal matters,
                  child pornography is often detected and becomes a matter for investigation.

                  A civilian employee of the Army in Oklahoma was sentenced to 87 months
                  imprisonment with no possibility of parole, 3 years supervised release, and
                  his name will be registered as a sex offender. He was ordered to pay a $5,000
                  fine and a $200 special assessment fee. This employee entered a voluntary
                  plea of guilty for the receipt of computerized photographs showing a minor
                  engaging in sexually explicit conduct. The investigation disclosed that these
                  images were loaded onto a DoD computer registered to the employee.


                                         3
Semiannual Report to the Congress




                            A DoD contractor in Texas was sentenced to 27 months imprisonment,
                            3 years supervised release and was ordered to pay restitution in the amount of
                            $931,161 and a $100 special assessment fee. The DoD contractor continued
                            to use the names of terminated employees on the company’s payroll to
                            embezzle over $250,000 and deposited the funds into his personal checking
                            account. These costs were eventually billed against a contract administered
                            by the Defense Contract Management Agency in Ohio.

                            An employee of a DoD contractor based in Utah was sentenced to 18 months
                            imprisonment, 36 months supervised probation, and was ordered to pay a
                            $100 special assessment fee. The employee, whose job involved classified
                            encryption projects, used government-furnished equipment to download and
                            distribute child pornography.

                            A Navy civilian employee installed a root kit and Internet Relay Chat
                            program and changed the root password on a Naval laboratory system. The
                            employee admitted installing illegal software, but denied compromising the
                            systems. Further investigation of system logs determined that the
                            compromise originated in Italy and Romania and not with the civilian
                            employee. Assistance was requested from the Italian and Romanian authori-
                            ties; however, they were unable to determine who was responsible for the
                            compromise. The systems were repaired, and no further compromise was
                            noted. Although the investigation failed to identify who compromised the
                            systems, the Navy was able to patch the system to prevent other such
                            intrusions.

                            A network domain intrusion at a Naval hospital resulted in the total loss of
                            network services. An investigation determined that 4 days of event security
                            logs had been erased. Once access to the system was gained, the intruder(s)
                            reconfigured the system and attacked the health services office and dental
                            centers files. Investigators traced the intruder(s) through a Canadian site;
                            however, Canadian authorities were unable to provide any additional investi-
                            gative information. The investigation developed information to assist
                            command authorities in identifying system vulnerabilities so that patches
                            could be placed on the system to prevent further damage and intrusions. The
                            hospital incurred a $20,000 loss as a result of the intrusion.

 Bribery and                The Anti-Kickback Act of 1986 addresses government employees and
 Kickbacks                  contractors who engage in bribery and kickbacks in exchange for govern-
                            ment contracts and subcontracts.

                            A former top 100 DoD contractor in New Jersey agreed to a civil settlement
                            in the amount of $685,000 to resolve alleged violations of the False Claims

                                                   4
                                                             Semiannual Report to the Congress




                   Act. The qui tam investigation alleged a contract fraud scheme involving
                   kickbacks and money laundering activities in the maritime industry. The
                   investigation developed from an undercover operation conducted with the
                   Federal Bureau of Investigation. The investigation previously resulted in the
                   conviction and incarceration of four contractor employees and the recovery
                   of an additional $392,000 in fines and restitution.

                   As a result of an investigation into an illegal kickback scheme, a
                   Massachusetts DoD subcontractor was sentenced to 2 years probation and
                   ordered to pay $4,263,037 in restitution and a $7,600 special assessment fee.
                   A second DoD subcontractor was sentenced to 2 years probation and ordered
                   to pay $3,286,515 in restitution and a $5,600 special assessment fee. A total
                   of six individuals and three companies were debarred from government
                   contracting by the Department of the Air Force. The investigation was based
                   on an anonymous hotline call that alleged a DoD subcontractor was paying
                   kickbacks to a prime contractor employee through his wife’s company. The
                   investigation previously resulted in the arrest and conviction of two individ-
                   uals and the recovery of an additional $6.9 million in fines and restitution.

                   A joint investigation revealed that a Navy government subcontractor
                   provided kickbacks to 12 prime contractor employees. The subcontractor,
                   who had contracts for the overhaul of Navy ships in New Orleans, Louisiana,
                   received pre-bid proprietary information on dry docking and repairs from the
                   prime contractor, who, in turn, received cash, accommodations, transporta-
                   tion, and merchandise from the subcontractor. As the result of a civil agree-
                   ment, the subcontractor paid the Navy $3.2 million in damages and the U.S.
                   Attorney’s Office for the Southern District of Alabama $400,000 to defray
                   the costs of the government’s investigation. Seven of the prime contractor
                   employees pled guilty to violations of the Anti-Kickback Act and were
                   sentenced according to their level of involvement. The U.S. Attorney deter-
                   mined that no criminal prosecutions would be initiated against the five
                   remaining prime contractor employees.

                   A major Defense contractor reached a $6.2 million civil settlement with the
                   government to settle issues concerning the improper testing of packaging
                   used to preserve spare parts and test failures of an accelerometer sensor
                   assembly for the Navy’s F/A-18 flight control computer. The sensor
                   assemblies, which did not meet Navy requirements, were delivered to the
                   Navy and installed on F/A-18 aircraft. Of the $6.2 million settlement,
                   $3 million went directly to the F/A-18 Program Office.

Financial Crimes   Financial crimes cases generally involve the filing of false claims or false
                   statements, public corruption violations, and contract fraudulent charging.

                                          5
Semiannual Report to the Congress




                            An investigation revealed that two defense contractors, with the help of a
                            procurement manager at an Air Force Base in Massachusetts, fraudulently
                            obtained certification that made them eligible to receive government
                            contracts outside the usual competitive bidding channels. The first company
                            was sentenced to 2 years probation and ordered to pay $4,263,037 in restitu-
                            tion and a $7,600 special assessment fee. The second company was
                            sentenced to 24 months probation and ordered to pay $3,286,515 in restitu-
                            tion and a $5,600 special assessment fee. The other participants in the
                            scheme, to include the procurement manager, were previously sentenced in
                            March 2002.

                            An investigation into cost mischarging allegations associated with Air Force
                            contracts disclosed information relating to fraudulent overstatement of the
                            company's profits. The former Chief Financial Officer (CFO) of a DoD sub-
                            contractor in Maryland was sentenced to 1 year probation with 6 months
                            home detention for his part in a conspiracy that overstated the company's
                            profits reported to the Securities and Exchange Commission. The CFO and
                            the company president provided false financial statements to the parent
                            company. The false statements resulted in a $6.25 million overstatement in
                            revenues. The profits were exaggerated at a time when the company was
                            being offered for sale. This could have resulted in a larger return on invest-
                            ment for the CFO and the president. The company president is awaiting
                            sentencing.

                            Four Texas DoD contractors agreed in a civil settlement to pay a total of
                            $775,000 and withdraw unpaid certified claims for equitable adjustment
                            totaling $8.2 million. Investigation disclosed that the claims for equitable
                            adjustment submitted to the U.S. Army Corps of Engineers were fraudulent
                            in the amount of $3.2 million. The companies also agreed to pay $10,000 in
                            legal fees for the qui tam relator in this action.

                            An investigation revealed that a major insurance company was involved in a
                            complex scheme with a military support association to increase profits
                            through the sale of life insurance policies to active duty military personnel.
                            The insurance company signed a settlement agreement with the U.S.
                            Attorney’s Office for the Eastern District of Pennsylvania, which provided
                            for the company to pay $1 million in civil penalties; to reimburse the govern-
                            ment $505,965 for the cost of the investigation; to increase the face value of
                            all in-force policies by 6.5 percent; to pay $2.5 million to all policy holders
                            who cancelled their policies during the relevant time period (1991–1998);
                            and to never sell another policy or reapply to the DoD for permission to
                            conduct business on a military installation.


                                                   6
                                                           Semiannual Report to the Congress




                In Arkansas, a U.S. District Court issued a final order and judgment against a
                Defense contractor for providing documentation to another company
                involved in a previous government investigation, which resulted in that
                company filing false certifications for progress payments on two government
                contracts and thus fraudulently obtaining the payments. The contractor was
                ordered to pay $5.4 million plus additional costs of $51,188.

                A Defense contractor in North Carolina pled guilty to submitting false state-
                ments and claims and was sentenced to 24 months imprisonment, 3 years of
                supervised release, and restitution of $1.5 million. The contractor failed to
                pay the supplier and subcontractors for worked performed on the contract
                after certifying it had been done. As part of the contractor’s sentence, the
                judge imposed a lifetime debarment from government contracting.

                The former co-owner of a company alleged inappropriate use of its minority
                status to obtain four Air Force and Navy contracts valued at $1.75 million.
                An investigation determined that the company obtained 10 small disad-
                vantaged business set-aside contracts by falsely certifying its minority status.
                The company’s current owners agreed to a civil settlement and a payment of
                $500,000. Suspension and debarment action is pending.

                An investigation revealed that a company’s president provided false claims to
                the government to generate cash flow to purchase additional stock in the
                company. On three cost-plus-fixed-fee engineering support contracts with an
                Air Force research laboratory, the company billed the government for
                advanced costs that had not been incurred; regularly billed delivery orders
                that had already been closed; double-billed various items; and charged
                indirect costs that were unallowable. In a mediated settlement agreement, the
                company paid $247,000, and the company’s president and vice president
                were proposed for debarment from government contracting.

Government      Misuse of government purchase cards continues to receive attention from
Purchase Card   Congressional and DoD leadership. Previously, the OIG responded to
Crimes          Congressional and DoD requests on an ad hoc basis. However, to provide
                more efficient and complete responses, the OIG recently established a
                centralized database to track purchase card fraud investigations conducted by
                the DCIOs. The database includes information on dollar loss, case status,
                allegation disposition, monetary recovery, and judicial action. The DCIOs
                continue investigations into the illegal use and misuse of government issued
                purchase and travel cards.

                As part of an ongoing DoD initiative into the detection of Government
                Purchase Card (GPC) fraud, waste, and abuse, a GS-15 DoD civilian

                                        7
Semiannual Report to the Congress




                            employee in the Pentagon was convicted of theft of government property.
                            The employee was sentenced to 37 months incarceration and was ordered to
                            pay $1.7 million in restitution. Her fraudulent use of a GPC resulted in
                            $1,711,000 in fictitious purchases. No goods or services were ever delivered,
                            and false invoices were provided to government auditors to conceal the ficti-
                            tious purchases. Another DoD employee, a subordinate to the above individ-
                            ual, was determined to have used her assigned GPC to fraudulently obtain
                            $30,000 in property and convert it to personal use. She was sentenced to
                            3 years supervised probation, 6 months home confinement, and was ordered
                            to make full restitution.

                            A DoD contractor in Louisiana agreed in a civil settlement to pay $725,000
                            to resolve allegations of false claims. The claims resulted from inappropriate
                            actions taken during the award process of contracts with the DoD. The
                            inappropriate action consisted of the contractor padding the contract price
                            through the inflation of projected services. The DoD employee agreed to the
                            contract knowing the price and service projections were inflated in exchange
                            for the contractor hiring his fiancé, after the DoD employee negotiated a
                            contract with the company on behalf of the government. The scheme was
                            uncovered through an investigation into the government employee’s fraudu-
                            lent use of a GPC, for which the government employee was previously
                            sentenced.

 Medical Fraud              Efforts to combat fraud against TRICARE and other government health care
                            programs resulted in many successes during this 6-month period.

                            A nationwide clinical laboratory paid $4,801,914 in a civil settlement to
                            resolve allegations of fraud against federal health care programs including
                            TRICARE and Medicare. The settlement was the result of a qui tam civil
                            lawsuit alleging the facility billed for unnecessary tumor analysis and
                            unbundled panels of tissue samples to receive higher reimbursement for
                            laboratory tests.

                            A Tennessee medical provider was sentenced to 15 months confinement,
                            3 years supervised probation, and was ordered to pay restitution of $247,002
                            and a $500 special assessment fee. The investigation disclosed the provider
                            illegally billed for medical services in spite of being excluded from
                            participating in any government-sponsored health care programs, including
                            TRICARE, as a result of a previous conviction.

                            A California proctologist was sentenced to 33 months in prison, 3 years
                            probation, and paid $29,999 in a civil settlement for submitting fraudulent
                            claims to the government insurance programs including TRICARE. His

                                                   8
                                                            Semiannual Report to the Congress




                previous guilty plea to conspiracy to defraud the Internal Revenue Service of
                both corporate and personal income taxes resulted in an additional payment
                of $370,000.

Environmental   Investigations in this area address such matters as reporting false test results,
Crimes          removal and disposal of hazardous materials from base closures under Base
                Realignment and Closure, and violations of environmental laws such as the
                Clean Water Act.

                An environmental testing company in Texas pled guilty to 10 counts of
                submitting false claims and making false statements to the U.S. Government.
                The company was ordered to pay a $1 million fine, $1.29 million in restitu-
                tion, and was placed on 5 years probation. From 1997 to 1999, the company
                falsified tests of underground storage tanks across the country including
                tanks on military bases, at post offices, and other facilities.

                A DoD subcontractor in Ohio that conducted plating operations, and its
                president/majority shareholder, each pled guilty to a single count of violating
                the Clean Water Act. The president was sentenced to 12 months imprison-
                ment, 6 months supervised release, and was ordered to pay $5,000 and a
                $100 special assessment fee. The company was sentenced to 2 years proba-
                tion, ordered to pay $25,000 and a $400 special assessment fee, and make a
                contribution of $10,000 to the Mid Ohio Regional Planning Commission’s
                Greenways Program.

                A Colorado subcontractor which provided labor to a prime contractor at
                several DoD facilities was sentenced to 15 months imprisonment, 3 years
                supervised release, and was ordered to pay $19,998 forfeiture and a $500
                special assessment fee. The labor subcontractor hired illegal aliens to work as
                asbestos abatement laborers throughout the United States. The workers were
                not adequately trained or provided the necessary equipment to safely perform
                asbestos abatement.

Theft           Theft of DoD material and munitions from the supply system and at the base
                level has a direct effect on military operational readiness.

                A former DoD employee was sentenced in New York to 1 year probation and
                ordered to pay a $500 fine and a $100 special assessment fee. The employee
                stole computer equipment including several hard drives containing person-
                ally identifying information about members of the an active military unit that
                supplies C-5 transport aircraft to the war effort. One of the hard drives was
                sold on E-Bay. The former DoD employee was allowed to resign from his


                                        9
Semiannual Report to the Congress




                            position in lieu of termination, and he received a less than honorable
                            discharge from the Air National Guard.

SPECIAL INQUIRIES           The OIG DoD Office of Special Inquiries conducts investigations and also
                            performs oversight of investigations conducted by the Military Departments
                            that pertain to:

                                    •   Allegations of reprisal actions taken against members of the armed
                                        forces, Defense contractor employees, and DoD nonappropriated
                                        fund employees for making protected communications.

                                    •   Allegations that members of the armed forces were referred for
                                        mental health evaluations without being afforded procedural rights
                                        prescribed in the DoD Directive and Instruction.

 Whistleblower              During the reporting period, the Inspector General of the DoD and the
 Reprisal Activity          Inspectors General of the Military Departments received 305 new complaints
                            of whistleblower reprisal. Of the 205 cases closed during this period,
                            172 cases were closed after preliminary analysis determined further investi-
                            gation was not warranted. A full investigation was conducted for 33 cases, in
                            which 17 cases (51 percent) contained one or more substantiated allegations
                            of whistleblower reprisal. These investigative results were referred to
                            commanders and supervisors for corrective action.

 Examples of                A Navy petty officer received an unfavorable evaluation and was separated
 Substantiated              from the Navy with a general discharge in reprisal for his complaints to the
 Whistleblower              chain of command regarding missing supplies, abuse of vehicle passes, and
 Reprisal Cases             abuse of authority. Corrective action is pending.

                            An Army sergeant in the National Guard received an adverse evaluation
                            report, and his award nomination was not recommended for approval after he
                            made allegations to Inspectors General regarding fraud, waste, and abuse and
                            violations of the "Don't Ask Don't Tell" policy on homosexuals in the
                            military. Corrective action is pending.

                            After a subordinate made a protected communication, an Air Force technical
                            sergeant threatened her promotion in reprisal for the subordinate’s protected
                            communication concerning unprofessional conduct by the technical sergeant.
                            The subordinate also received a downgraded performance report and was not
                            selected for a key position in reprisal for her protected communication.
                            Corrective action is pending.



                                                    10
                                                                  Semiannual Report to the Congress




                        An Army colonel and major issued an unfavorable evaluation to a senior
                        noncommissioned officer after she made protected communications to her
                        chain of command, an equal opportunity office, and Inspectors General
                        alleging sexual discrimination and mistreatment of females by senior leader-
                        ship. Responsible management officials retired before completion of the
                        investigation and no corrective action was taken.

                        A Defense contractor employee was terminated from employment in reprisal
                        for disclosing violations of an Air Force contract for hospital maintenance
                        services to a government contracting official and a medical flight
                        commander. Corrective action is pending.

 Referrals for Mental   Twelve cases closed during the reporting period contained allegations of
 Health Evaluations     improper referrals of military members for mental health evaluations.
                        Investigations of 10 cases substantiated that commanders failed to follow the
                        procedural requirements for referring a Service member for a mental health
                        evaluation under DoD Directive 6490.1, “Mental Health Evaluations of
                        Members of the Armed Forces.” We continue our efforts with the Inspectors
                        General of the Military Departments to improve commanders’ knowledge of
                        the Directive’s requirements.

DEPARTMENTAL
INQUIRIES

 Senior Official        The OIG DoD Office of Departmental Inquiries conducts investigations into
 Inquiries              allegations against senior military and civilian officials and performs over-
                        sight of senior official investigations conducted by the Military Departments.

                        Figures 2 and 3 (page 12) show results of activity on senior official cases
                        during the period. On March 31, 2003, there were 245 ongoing investigations
                        into senior official misconduct throughout the Department, which repre-
                        sented an increase from October 1, 2002, when we reported 224 open
                        investigations. Over the past 6 months, the Department closed 208 senior
                        official cases, of which 24 (12 percent) contained substantiated allegations.

INSPECTIONS AND         The Office of the Assistant Inspector General for Inspections and Policy
POLICY                  (OAIG-IP) was established during this reporting period, within existing
                        resources, in the next phase of the transformation of the OIG DoD to form
                        the third arm of the team of investigators, inspectors, and auditors
                        “…inspiring by paradigm a culture of accountability and intelligent risk-
                        taking throughout the Department of Defense.” The OAIG-IP includes the
                        DoD Hotline, the offices of Investigative Policy and Oversight (IPO) and
                        Audit Policy and Oversight (APO), and will soon include an Inspections

                                              11
Semiannual Report to the Congress




                                                DoD Total Senior Official Cases
                                                       FY 99 - FY 02

                                                                                    578
                          600
                                                                                                   503
                                                                              488
                          500                        455                                                 460

                                   401                     402
                          400             369


                          300                                                                                       234
                                                                                                                          208
                          200
                                                                                          89
                          100                   66                69                                           70
                                                                                                                                24

                            0
                                     F Y99             F Y00                    FY01                 FY02           FY03-lst
                                                                                                                     Half

                                                     Op ened                Clo sed            Substantiated



                                 This chart shows the total number of senior official investigations
                                  conducted in the DoD over the past 4 and one-half fiscal years.

                                                                 Figure 2




                     Nature of Substantiated Allegations Against Senior Officials
                                       During 1st Half FY 03
                             Misuse Gov't                                               Other
                              Property/                                               Misconduct
                              Resources                                                  15%
                                24%




                                                                                                                             Abuse of
                                                                                                                            Authority/
                                                                                                                            Favoritism
                     Improper Personnel                                                                                        31%
                          Action                            Sexual Harassment/
                           15%                                  Improper
                                                               Relationship
                                                                   15%




                                                                       Figure 3



                                                                       12
                                                                  Semiannual Report to the Congress




                       team. The Office has already undertaken several highly sensitive inspections,
                       including the Air Force Academy sexual assault issues, the DoD program to
                       prevent human trafficking, and a peer review requested by the Navy of its
                       Office of Inspector General.

Hotline                The OIG Hotline continues to be a viable in-take activity for DoD employees
                       and the public to report suspected instances of fraud, waste, and mismanage-
                       ment, and suspected threats to homeland security. During the reporting
                       period, the OIG Hotline received 6,901 contacts from the public and
                       members of the DoD community and initiated 1,468 investigations. Addi-
                       tionally, the OIG Hotline received 37 Congressional interest cases during the
                       reporting period. A number of contacts came from individuals reporting sus-
                       pected threats to homeland security--a new mission for the Defense Hotline.

Investigative Policy   The responsibilities of the Investigative Policy and Oversight Office is to
and Oversight          assist the OIG in fulfilling its statutory responsibilities to prevent fraud,
                       waste, and abuse; to develop investigative policy for the Department; and to
                       monitor and evaluate the performance of the DoD law enforcement
                       community. A large amount of the work performed by IPO consists of over-
                       sight of the operations, policies, and products of the four DCIOs, which
                       investigate crimes affecting the DoD. A summary of work performed by the
                       DCIOs and monitored by IPO follows.

 Recent                Following the events of September 11, 2001, the Office of Investigative
 Management            Policy and Oversight (IPO) formed the Enduring Freedom Support Group
 Actions               (EFSG), comprised of senior IPO, DCIO, and law enforcement organization
                       policy experts. At its quarterly meetings, the EFSG addresses emerging
                       issues faced by the DoD criminal investigative and law enforcement com-
                       munities, seeking to concentrate resources in areas that provide the greatest
                       assistance to the DoD. Through the EFSG, IPO strives to reduce barriers,
                       develop strategies, and forward or coordinate major areas of concern facing
                       the law enforcement community. During this reporting period, the EFSG
                       discussed the Attorney General’s September 2002 memorandum on the
                       disclosure of foreign intelligence acquired in the course of a criminal investi-
                       gation; the use of the Army forensic laboratory to support investigations by
                       Defense Agency investigators; implementation of the statistical collection
                       regarding purchase card misuse; the proposed interim guidance concerning
                       retention of information collected on non-DoD individuals and organiza-
                       tions; and the FBI’s audit of the Army’s submissions to the National Crime
                       Information Center as required by the Brady Law.

                       On January 7, 2003, the Inspector General issued DoD Instruction 5505.7,
                       “Titling and Indexing of Subjects of Criminal Investigations in the

                                              13
Semiannual Report to the Congress




                            Department of Defense.” The revised Instruction incorporates a process
                            whereby individuals who are titled/indexed can seek a review by the head of
                            the investigative agency of that decision.

                            On February 6, 2003, the Inspector General issued DoD Instruction 5505.2,
                            “Criminal Investigations of Fraud Offenses.” The Instruction establishes
                            policies, responsibilities, and procedures for determining which of the
                            DCIOs shall conduct investigations of fraud offenses under the United States
                            Code and the Uniform Code of Military Justice.

  Investigative Policy      The Office of Investigative Policy and Oversight issued two evaluation
  and Oversight             reports during this period:
  Products
                                    •   Evaluation of Installation-level Training Standards for Civilian
                                        Police Officers and Security Guards in the Department of Defense

                                    •   Evaluation of the Policies and Practices of the Defense Organiza-
                                        tions Employing Criminal Investigators with Respect to Control
                                        over Firearms

                            The training standards report determined that training for civilian police
                            officers and security guards in DoD varies widely and does not ensure that
                            individuals possess the core competencies needed for their jobs, including the
                            ability to respond to major threats and emergencies. A similar condition was
                            identified with respect to physical fitness requirements. The report recom-
                            mended that DoD follow the Model Minimum Standards for training adopted
                            for the law enforcement profession, and require police officers and security
                            guards to complete a military training program for law enforcement
                            personnel.

                            The firearms control report verified accountability of nearly 6,000 firearms in
                            a sampling of six criminal investigative agencies and their firearms manage-
                            ment programs. Further, it determined that criminal investigators in each
                            organization have proper authorization to carry firearms. The report recom-
                            mended several enhancements to management controls concerning
                            accountability records and a recurring awareness program for personnel
                            responsible for firearms accountability.

  Voluntary                 The Voluntary Disclosure Program encourages contractors to disclose
  Disclosure                potential criminal or civil fraud that may affect their contractual relationship
  Program                   with the DoD or the contractor’s responsibility under the Federal Acquisition
                            Regulation. During this reporting period, the government recovered
                            $846,500 in two disclosure settlements and received two requests for

                                                    14
                                                              Semiannual Report to the Congress




                   admission to the program. Since its inception in 1986, the program has
                   recovered more than $423.2 million.

Audit Policy and   In accordance with the Inspector General Act of 1978, as amended, the
Oversight          Office of Audit Policy and Oversight (APO) provides policy direction and
                   oversight for audits performed and evaluates the performance of over 6,000
                   DoD auditors, ensures appropriate use of non-federal auditors and their
                   compliance with auditing standards, and ensures that contracting officials
                   comply with statutory and regulatory requirements when processing contract
                   audit reports. During the reporting period, APO issued four oversight and
                   quality control review reports, as follows, and completed several other
                   significant actions.

                         •   DoD Oversight of Contractor Purchasing Systems

                         •   Summary of Quality Control Reviews of Office of Management
                             and Budget (OMB) Circular A-133 Audits

                         •   Quality Control Review of Grant Thornton, LLP OMB Circular
                             A-133 Audit Report of the Center for Naval Analyses Corporation,
                             Fiscal Year Ended September 30, 2001

                         •   The Quality Control System at the National Security Agency
                             Inspector General Office of Audits

                   The APO also issued the overall opinion on the FY 2002 Military Depart-
                   ment Audit Agencies’ External Quality Control Reviews, which were done
                   using the newly established process, and issued the third in a series of reports
                   in the continuing review of the Defense Contract Audit Agency’s quality
                   control system, with an overall opinion to be issued by September 30, 2003.
                   Other APO actions include:

                         •   Recommended that the Military Services not contract out their
                             internal audit function because internal auditing is an important
                             tool for the Military Departments and managers to account for
                             money Congress has appropriated and is explicitly envisioned in--
                             if not required by--both the Inspector General Act of 1978, as
                             amended, and the Goldwater-Nichols Department of Defense
                             Reorganization of 1986.

                         •   Reviewed data supporting a proposal to consolidate the Army
                             Audit Agency and Army Internal Review.


                                          15
Semiannual Report to the Congress




                                    •   Participated in revising OMB Circular A-133 guidance,
                                        commented on proposed legislation, OMB guides, and revisions to
                                        the Federal Acquisition Regulation and Defense Federal Acquisi-
                                        tion Regulation Supplement.

                                    •   Provided consultation and training on audit standards and policy
                                        issues to OIG and other auditors.

AUDITING                    The central audit offices of the DoD are the OIG DoD, the Army Audit
                            Agency, the Naval Audit Service, and the Air Force Audit Agency. The
                            organizations all together issued 188 reports, identifying the opportunity for
                            $554 million in monetary benefits. Appendix A lists internal audit and evalu-
                            ation reports by management challenge area. Appendices B and C, respec-
                            tively, list OIG DoD reports with potential monetary benefits and statistically
                            summarize audit followup activity.

                            The Defense Contract Audit Agency (DCAA) provided financial advice to
                            contracting officers in 18,273 reports issued during the period. Contract
                            auditing resulted in approximately $3.23 billion in questioned costs and
                            funds put to better use. Further details are at Appendix D. Contracting
                            officers disallowed $190 million as a result of significant DCAA post-award
                            contract audit reports closed during the period. Additional details on the
                            status of actions taken on significant post-award contract audits are in
                            Appendix E.

 Acquisition                The Department is the largest purchaser in the world. In fiscal year 2002, the
                            Department spent $200 billion on acquisition. On average every working
                            day, the Department issues more than 20,000 contract actions valued at
                            $692 million and makes more than 5,000 purchase card transactions valued
                            at $26 million. The Department’s challenge is to obtain the best value of
                            quality and cost for a myriad of goods and services. During the reporting
                            period, the DoD audit community issued 51 reports on acquisition issues.
                            Ultimately, every acquisition dollar that is not prudently managed is a dollar
                            not available to fight the war on terrorism.

                            The OIG DoD reported that technology has not quickly transitioned to the
                            warfighter. Despite the development of the Future Naval Capabilities process
                            that was designed to align and partner requirements, acquisition, and science
                            and technology communities to focus on delivering and transitioning priority
                            naval capabilities, a review of 33 technologies found that all 33 lacked one or
                            more elements for transitioning. These deficiencies included the lack of
                            charters to establish roles and responsibilities, lack of agreements on
                            technology readiness levels and exit criteria, and no identifiable funding.

                                                    16
                                           Semiannual Report to the Congress




An OIG DoD report about V-22 Osprey Joint Advanced Vertical Aircraft
disclosed that the fuel cells in the fuselage sponsons of the aircraft were
noncrashworthy. Based on a Navy safety risk assessment, the Under
Secretary of Defense for Acquisition, Technology, and Logistics determined
that the benefits of returning to flight outweighed the risks of using noncrash-
worthy fuel cells. The report pointed out that the safety risk assessment for
the fuel cells was flawed and the Under Secretary of Defense for Acquisition,
Technology, and Logistics responded by initiating action to ensure that the
safety organizations of the Military Departments review their safety risk
assessment procedures and update them.

An OIG DoD report identified where management of the Aviation Into-Plane
Reimbursement card needed improvement. The reimbursement card was
used to purchase $222 million of fuel and ground handling support. Only 3 of
17 activities visited actually reconciled monthly bills to all the purchase card
receipts. This resulted in an undetected $8 million worth of duplicate bills
and tax overpayments.

Contracting procedures with small businesses also needed improvement. An
OIG DoD audit identified where five contractors overstated their Historically
Underutilized Business Zones (HUBZones) subcontracting awards by
$1.3 million. Thus the Department managers were not aware that the
program was overstating its accomplishments. In another audit focusing on
124 contract awards to small business, the OIG reported that 48 awards
should have been competed instead of sole-sourced, 70 awards lacked
adequate reviews of contractor price lists, and 45 awards did not request
available discounts. This lack of attention to proper contracting procedures
resulted in not obtaining the best prices for the warfighter.

The Department has about 1,500 weapon systems acquisition programs
valued at $1.8 trillion over the collective life of the program. The OIG DoD
audits of the Chemical Demilitarization Program and Advanced Deployable
System showed the need to update the acquisition program baseline and life
cycle cost estimates to effectively manage the program and facilitate
investment decisions. A naval audit of the Advanced Mission Computer and
Display Program showed that the program was incorrectly managed under a
schedule-driven acquisition strategy instead of an event-driven strategy, and
that $37 million programmed for warranties was not required. For the Space
Based Infrared System-High, the Air Force Audit Agency reported that the
program was not adequately identifying and controlling program risk.
Further, the award fee and corporate commitment plan were not achieving
the intended objective of an incentive tool.


                       17
Semiannual Report to the Congress




 Human Capital              The challenge in the area of human capital is to ensure that the DoD civilian
                            and military workforces are appropriately sized, well trained and motivated,
                            held to high standards of integrity, encouraged to engage in intelligent risk
                            taking, and thus capable of handling the emerging technologies and threats of
                            the 21st century. The Department has 2.6 million active duty and Reserve
                            men and women under arms and a civilian workforce of nearly 700,000. The
                            size of DoD and the wide variety of skills needed to meet this challenge are
                            complicating factors, as are the constraints posed by personnel management
                            rules.

                            The protection of social security numbers is a paramount issue because of the
                            increase in identity theft. An OIG DoD report addressed how three Defense
                            agencies provided controls over improper release of individual social
                            security numbers. Those three agencies made disclosures of personally
                            identifiable information for legal purposes; however, their programs needed
                            improvements in policy administration, oversight, periodic reviews, physical
                            security, and training.

                            The Under Secretary of Defense for Personnel and Readiness requested the
                            OIG DoD assess the implementation of policies with regard to inappropriate
                            coercion or pressure for Army members to join various non-federal entities.
                            The assessment indicated that DoD prohibitions on coercing or pressuring
                            Army members to join non-federal entities were not fully implemented.

                            The Department is developing and implementing a common DoD-wide
                            military personnel system. The OIG DoD reported that the Navy was
                            continuing to fund development of the Navy Standard Personnel System
                            even though the Defense Integrated Military Human Resources System is
                            scheduled to replace the Navy system. About $33.4 million programmed for
                            future development of the Navy system could be put to better use by halting
                            development of the redundant system.

                            The Naval Audit Service reported that the Marine Corps used military
                            personnel to perform non-military essential duties that could have been
                            performed by civilians, and incorrectly reported that all these military
                            personnel were performing military essential duties. Such use of military
                            personnel was significantly more costly than employing civilians and was
                            counter to DoD policies regarding the accomplishment of commercial type
                            work. An Army audit of the recruiting command showed it could reduce
                            staffing and costs by $17 million and still achieve the recruiting objectives.

                            The Uniformed and Overseas Citizens Absentee Voting Act requires the OIG
                            DoD to annually report on each Service’s compliance with the Act, starting in

                                                  18
                                                        Semiannual Report to the Congress




             2003. The report showed that the DoD Federal Voting Assistance Program
             Office developed guidance and resources for effective and compliant DoD
             implementation of the Act. Although each Service had a plan for imple-
             menting the Voting Assistance Program, the effectiveness of the Services’
             programs for the November 2002 elections varied at the 10 locations visited.
             The Services’ voting assistance programs were partially effective at six
             locations and ineffective at four locations. Problems identified were that unit
             voting assistance officers lacked training, absentee voters were not aware of
             voting assistance officers, and the span of control of unit voting assistance
             officers was too large.

Financial    The DoD audit community has consistently reported on the lack of adequate
Management   financial reporting systems and a variety of internal control problems. These
             combined have prevented those systems from being able to consistently
             provide managers with accurate and timely information for decision making
             and produce financial statements that can receive an audit opinion. To help
             resolve these problems, the Department established the Financial Manage-
             ment Modernization Program. Part of the program includes the financial
             management enterprise architecture that will be used to construct and guide
             the Department’s future business environment. The final “To Be” architec-
             ture and a transition plan are scheduled for release in April 2003. The OIG
             DoD welcomes development of the architecture because it has consistently
             advocated a primary and singular focus on the Department’s financial
             systems. During the reporting period the DoD audit community issued
             51 reports on Financial Management.

             Despite the extensive efforts by the Department’s financial managers, the
             basic scorecard of obtaining an opinion on the nine major component
             financial statements did not show progress for fiscal year 2002. Of the nine
             major financial statements, only the Military Retirement Trust Fund could
             provide reliable financial information that could achieve an unqualified audit
             opinion. About 120 OIG DoD auditors were assigned to the audit of the
             Army Corps of Engineers, Civil Works financial statement because the Army
             asserted it was ready for obtaining an audit opinion. Although an audit
             opinion did not result from the effort, the OIG DoD will continue to work
             with the Army as progress is ongoing. Four smaller Defense components’
             financial statements achieved an audit opinion this year, and this is positive.
             The Department’s financial managers and OIG DoD auditors developed a
             cooperative planning and work strategy to address the accelerated submis-
             sion of audit financial statements from January 31, 2003, for fiscal year 2002,
             to November 15, 2004, for fiscal year 2004. The cooperative attitude between
             the financial managers and auditors is refreshing.


                                    19
Semiannual Report to the Congress




                            Until the Department installs its new financial management architecture and
                            integrated systems, it must rely on workarounds and manual compilations of
                            financial data that are prone to errors. A series of three OIG DoD audits
                            identified hundreds of millions of dollars of deferred maintenance that were
                            not identified and reported for financial statements. Other audits of the Navy
                            identified $6.9 billion of assets that were erroneously reported in the wrong
                            financial category. Adequately documenting adjustments to closed accounts
                            is still an issue needing improvement because an OIG DoD audit identified
                            $53 million of unsupported changes to Navy accounts. Similarly, the Air
                            Force Audit Agency reported that $1.6 billion of environmental restoration
                            contingent liability was understated by $107 million.

                            The Air Force Audit Agency reported that the Air Force Material Command
                            could reduce overtime costs by $134 million through improved management
                            control of overtime and annual leave use. An Army audit showed that the
                            military treatment facilities could improve business processes and increase
                            collections from patients with non-DoD health insurance by $24 million
                            annually.

 Homeland Security          The start of Operation Iraqi Freedom has heightened the level of threat from
                            adversaries who may use nuclear, chemical, and biological weapons and
                            weapons of mass disruption such as information warfare attacks on the
                            Defense information structure. The DoD audit community issued 24 reports
                            related to Homeland Security.

                            Since FY 2001 the Government Information Security Reform Act required
                            that each agency obtain an independent assessment of its security posture.
                            The fiscal year 2002 review assessed the accuracy of the data DoD used in
                            fiscal year 2001 to report the security status for 560 information technology
                            systems. The DoD reported invalid data on the security status of systems for
                            an estimated 370 systems. Further, although the requirement for systems to
                            maintain security certification and accreditation has existed since 1997, we
                            estimate that only 101 of 560 systems met the requirement. Consequently, the
                            Office of Management and Budget and DoD managers do not have
                            dependable information to ascertain the degree to which information security
                            controls exist in systems.

                            The OIG DoD reported that 72 of 91 mission-essential systems that process
                            billions of dollars annually of financial transactions did not have adequate
                            information security controls. The Air Force Audit Agency identified the
                            need for complete and consistent guidance for approving and controlling
                            contractor and foreign national access to DoD networks and computer
                            systems. An Army audit identified that the Army top-level architecture

                                                  20
                                                                Semiannual Report to the Congress




                    redesign for information security could reduce costs from $708 million to
                    $475 million over the next 6 years.

                    Control over computer assets is a basic tenet of Information Security. The
                    Naval Audit Service reported that 595 of 15,068 leased personal computers
                    were missing from units under cognizance of the Commander U.S. Pacific
                    Fleet.

                    To provide a ready reference tool for Department managers and the Joint
                    Chiefs of Staff, the OIG issued a classified summary of 51 completed and
                    54 ongoing audits and inspections identifying Homeland defense, chemical
                    and biological defense, and counterterrorism issues. The OIG DoD also
                    issued 3 reports on the need to improve the security and export controls over
                    biological agents at Defense laboratories and medical facilities.

Joint Warfighting   The DoD needs to design and produce new systems with joint warfighting
and Readiness       requirements in mind. To reduce the risk of building stovepipe systems, the
                    Defense components are required to develop and retrofit DoD systems into
                    common interoperable and secure systems. An OIG DoD report on imple-
                    mentation of interoperability and information assurance policies for acquisi-
                    tion of DoD weapon systems pointed out the need for consistent guidance
                    and a process to measure and assess interoperability. Otherwise, DoD is at
                    risk of developing systems that operate independently of other systems and
                    of not fully realizing the benefits of interoperable systems to satisfy the needs
                    of the joint warfighter. The Director Joint Staff agreed with the report and the
                    need for a joint process responsible for developing and acquiring joint
                    command and control systems and integrating capabilities.

                    Our armed forces must be prepared to execute their missions in all types of
                    environments including those that are chemically and biologically contami-
                    nated. Over the last 9 years, the Department has made progress in improving
                    the quality and quantity of individual protective equipment, but additional
                    improvements are still needed. As the OIG identifies issues on individual
                    protective equipment, the Department has been initiating corrective actions.
                    The Inspector General testified in open and closed sessions on October 1,
                    2002, before the House Subcommittee on National Security, Veterans Affairs
                    and International Relations, House Committee on Government Reform on
                    preparing for the toxic battlefield. The testimony addressed the results of
                    reviews of 287 military units in 31 states, the U.S. European Command, and
                    the U.S. Central Command and their use of chemical and biological
                    individual protective equipment. The testimony described the need for an
                    inventory management tool to provide visibility of individual protective
                    equipment and training for proper storage and maintenance of the equipment.

                                           21
Semiannual Report to the Congress




                            An OIG DoD report about the U.S. Pacific Command issued after the
                            testimony identified similar issues on the use of chemical and biological
                            individual protective equipment.

                            Accurate readiness reporting is key to effective decision making at the Joint
                            Chiefs of Staff and Combatant Command levels. In a series of reports, the
                            Naval Audit Service identified inaccurate readiness reporting for Navy P-3
                            aircraft squadrons and cruiser units because of liberal interpretation of readi-
                            ness criteria, omission errors, errors in judgment, and lack of training. The
                            Navy Readiness Information System data for manpower contained erroneous
                            definitions that resulted in some units unknowingly overstating personnel
                            readiness.

 Logistics                  Control and accountability of material storage used and repaired at DoD
                            depot maintenance facilities continues to be problematic. In fiscal year 2002,
                            the DoD spent an estimated $15.3 billion for depot maintenance. The proper
                            management of this important function requires that adequate controls and
                            procedures be in place and followed to ensure that assets remain viable to the
                            materiel managers and that proper quantities be maintained. The DoD audit
                            community issued 20 reports on logistics issues during the reporting period.
                            The OIG DoD issued three reports that identified $90 million of parts that
                            were either unaccounted for or excess to known requirements at three depot
                            maintenance facilities. We noted that at one depot the error rate in the depot’s
                            inventory record was 8.8 percent and the error rate for the second depot was
                            23.8 percent.

                            The Naval Audit Service reported that the Naval Air Systems Command
                            could not demonstrate that using contractor logistics support was resulting in
                            reduced cost and improved system availability. The Navy could only provide
                            documentation for 21 of 63 decisions that chose contractor logistics support.
                            Controls did not exist to ensure that the basis for the contractor logistics
                            support product support decisions included achieving the desired results of
                            reduced cost, improved system availability, and adequate performance
                            information.

                            The Air Force Audit Agency reported that the propulsion modernization
                            program for the T-38 Talon did not consider performance and reliability
                            improvements in computations for engine and spare parts requirements.
                            Consequently, the Air Force could spend $124 million to modify 105 aircraft
                            and engines that will not be needed.

 Export Controls            The annual statutory required audit of exports controls focused on DoD
                            involvement in export enforcement activities this year. The Defense

                                                   22
                                                                                  Semiannual Report to the Congress




                                 Technology Security Administration established and executed an effective
                                 monitoring program for space launches and ensured that space launch-related
                                 technology was not inadvertently released or obtained by potential
                                 adversaries. However, improved Defense management controls and proce-
                                 dures were needed to verify that Department of Commerce and Department
                                 of State approval of export licenses accurately reflected DoD conditions for
                                 approval of the license. Specifically, of the 4,976 export licenses reviewed,
                                 347 Departments of Commerce- or State-approved licenses misstated or
                                 omitted DoD conditions for approval. Further, only 84 of 574 enforcement
                                 actions required by DoD for approval of the export licenses were performed
                                 by the Departments of Commerce and State.

SIGNIFICANT OPEN                 Managers accepted or proposed acceptable alternatives for 306 (99 percent)
RECOMMENDATIONS                  of the 308 OIG DoD audit recommendations made in the first 6 months of
                                 fiscal year 2003. Many recommendations require complex and time-
                                 consuming actions, but managers are expected to make reasonable efforts to
                                 comply with agreed-upon implementation schedules. Although most of the
                                 1,143 open actions being tracked in the OIG DoD follow up systems are on
                                 track for timely implementation, there were 234 reports more than 12 months
                                 old, dating back as far as 1990, for which management has not completed
                                 actions to implement the recommended improvements.1/

                                 We are concerned that DoD was not benefiting from the recommended
                                 improvements and was not meeting the intent of the Inspector General Act to
                                 complete corrective actions promptly. To accelerate implementation of the
                                 corrective actions, the Inspector General wrote to each component head
                                 responsible for the delinquent recommendation and requested their assistance
                                 in completing the needed actions. This resulted in increased senior DoD
                                 leadership involvement in implementing the overdue corrective actions.

                                 Significant open recommendations that have yet to be implemented include
                                 the following:

                                        •   Recommendations made in 1997 and 2000 to improve policy
                                            guidance on handling potentially dangerous munitions residue on



1.      Section 6009 of the Federal Acquisition Streamlining Act, as amended, provides: “If the head of the agency fails to
complete final action with regard to a management decision within the 12-month period, the inspector general concerned
shall identify the matter in each of the inspector general’s semiannual reports pursuant to section 5(a)(3) of the Inspector
General Act of 1978 (5 U.S.C. App.) until final action on the management decision is completed.” A list of OIG DoD
reports on which management decisions have been made but final action has not been taken is continued in the Secretary of
Defense Report issued pursuant to section 5(b) of the Inspector General Act.


                                                           23
Semiannual Report to the Congress




                                        training and test ranges. The applicable policy documents are still
                                        in draft.

                                    •   Recommendations made in 1998 to improve management of the
                                        electromagnetic frequency spectrum are partially accomplished,
                                        but final guidance has still not been issued.

                                    •   Recommendations made in 2000 to improve controls over the
                                        release of technical information ("deemed exports") to foreign
                                        governments and individuals.

                                    •   A recommendation made in 2000 to establish centers of excellence
                                        for contracting for services.

OIG DOD
TESTIMONY/
COMMENTS

 Chemical and               On October 1, 2002, Joseph E. Schmitz, Inspector General of the Department
 Biological Defense         of Defense, testified before open and closed sessions of the House
                            Committee on Government Reform, Subcommittee on National Security,
                            Veterans Affairs, and International Relations, during a hearing on Chemical
                            and Biological Equipment: Preparing for a Toxic Battlefield. The Inspector
                            General testified on audit efforts to assess the availability and serviceability
                            of chemical and biological defense material issued to U.S. Armed Forces.
                            Although much of the Inspector General’s testimony was reserved for closed
                            session, he discussed the need for the Services to develop standardized auto-
                            mated inventory management tools and improved readiness reporting
                            systems. Mr. Schmitz also emphasized the importance of providing compre-
                            hensive chemical and biological defense training programs and ensuring
                            compliance with training guidelines.

 Cooperative Threat         On March 4, 2003, David Steensma, Deputy Assistant Inspector General for
 Reduction Program          Auditing, testified before the House Committee on Armed Services at a
                            hearing on U.S.-Russian Cooperative Threat Reduction and Non-
                            Proliferation Programs. The testimony centered on an audit of the
                            “Cooperative Threat Reduction Liquid Propellant Disposition Project” issued
                            September 30, 2002 (Report No. D-2002-154). The audit found that the DoD
                            obligated $164 million to assist Russia in developing a facility to dispose of
                            liquid fuel used for launching intercontinental ballistic missiles and
                            submarine-launched ballistic missiles. When the facility was ready for
                            testing, the Defense Threat Reduction Agency learned that Russia had used
                            the fuel for its commercial space launch program and there was insufficient

                                                    24
                                                               Semiannual Report to the Congress




                     fuel available to cost effectively operate the plant. In February 2003, the
                     Deputy Secretary of Defense approved the “dismantlement and salvage
                     where possible” of the facility.

                     As a result of the audit, the OIG DoD recommended that the DoD reduce
                     program risks by negotiating implementing agreements requiring a commit-
                     ment from Russia to provide the weapon systems and their components,
                     provide adequate transparency rights to DoD, and include remedies when
                     Russia fails to use equipment and services provided by DoD. The OIG DoD
                     testified that the DoD is to be commended for establishing an Executive
                     Review program to assess risks associated with other cooperative threat
                     reduction projects.

 Proposed Revision   The OIG DoD provided comments to the proposed Office of Management
 to OMB Circular     and Budget (OMB) revision of Circular A-76, Performance of Commercial
 A-76                Activities. In a February 11, 2003, letter to OMB, the Inspector General
                     recommended that public-private competitions consider net present value for
                     cost comparisons. In his letter, the Inspector General noted, “The longer the
                     period of performance, the greater the impact net present value will have on
                     ensuring the best decisions are made for the benefit of the government and
                     the taxpayer.” The Inspector General recommended that for the government
                     to achieve measurable benefits from competitive sourcing and to enable
                     managers to make informed decisions, net present value should be evaluated
                     for all competitive sourcing competitions exceeding 3 years.

INTELLIGENCE         See the Classified Annex to this report for summaries of the 114 intelligence-
REVIEW               related and other sensitive reports.




                                           25
Semiannual Report to the Congress




                                    This page left blank intentionally




                                                  26
Semiannual Report to the Congress                                                                          Appendix A


                             APPENDIX A*
      REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS




  Excludes base level reports issued by the Air Force Audit Agency and memorandum reports and
  consulting reports issued by the Army Audit Agency. Includes evaluation reports issued by the OIG
  DoD.

  Copies of reports may be obtained from the appropriate issuing office by calling:

                  OIG DoD                                           Army Audit Agency
                  (703) 604-8937                                    (703) 681-9863

                  Naval Audit Service                               Air Force Audit Agency
                  (202) 433-5525                                    (703) 696-8027
                                                                    (703) 697-8014




              Summary of Number of Reports by Management Challenge Area
                           October 1, 2002 - March 31, 2003
                                                        IG, DoD          Military Depts.            Total
      Financial Management                                   21                  30                  51
      Acquisition                                            13                  25                  38
      Logistics                                               5                  15                  20
      Readiness                                               4                   9                  13
      Information Technology Management                       5                   4                    9
      Infrastructure and Environment                          3                  15                  18
      Information Security                                   10                   9                  19
      Human Capital                                           3                   4                    7
      Health Care                                             1                   5                    6
      Other                                                   5                   8                   13
      Total                                                  70                 124                 194
       The OIG DoD also issued 4 reports and the Military Department audit agencies issued 3 reports
       on audit oversight reviews. For information on intelligence-related reports, including those issued
       by other Defense agencies, refer to the classified annex to this report.


    * Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C.,
      Appendix 3, Section 5(a)(6) (See Appendix B).



                                                        27
Appendix A                                                           Semiannual Report to the Congress

                                   D-2003-043 Independent                D-2003-058 Financial
 FINANCIAL                         Auditor’s Report on the U.S.          Reporting of Deferred Mainte-
 MANAGEMENT                        Army Corps of Engineers, Civil        nance Information on Navy
                                   Works, FY 2002 Principal              Weapon Systems For FY 2002
                                   Financial Statements (1/6/03)         (3/6/03)
 IG DoD
                                   D-2003-044 Independent                D-2003-060 DoD Payroll
 D-2003-010 Promptness of FY
                                   Auditor’s Report on the Depart-       Withholding Data for FY 2002
 2003 First Quarter DoD Pay-
                                   ment of the Navy General Fund         (3/18/03)
 ments to the Department of the
                                   FY 2002 Principal Financial
 Treasury for District of                                                D-2003-062 Processing General
                                   Statements (1/7/03)
 Columbia Water and Sewer                                                Services Administration Rent
 Services (10/15/02)               D-2003-045 Independent                Bills for DoD Customers in the
                                   Auditor’s Report on the Navy          National Capital Region
 D-2003-017 Naval Ammunition
                                   Working Capital Fund FY 2002          (3/12/03)
 Logistics Center Financial
                                   Principal Financial Statements
 Reporting of Ammunition and                                             D-2003-067 Audit of
                                   (1/7/03)
 Other Ordnance Assets in                                                Recoveries of Prior Year
 Operating Materials and           D-2003-046 Independent                Obligations (3/21/03)
 Supplies for FY 2002 (10/30/02)   Auditor’s Report on the Army
                                   Working Capital Fund FY 2002          Army Audit Agency
 D-2003-020 Naval Air Systems
                                   Principal Financial Statements        A-2003-0032-FFG Auditors
 Command Financial Reporting
                                   (1/8/03)                              Opinion of Audit of American
 of Non-Ammunition Operating
 Material and Supplies For         D-2003-047 Independent                Red Cross (10/30/02)
 FY 2002 (11/8/02)                 Auditor’s Report on the Army          A-2003-0003-IMU Overhead
                                   General Fund FY 2002 Principal        and Layering in Morale, Welfare
 D-2003-030 Financial
                                   Financial Statements (1/8/03)         and Recreation Activities, U.S.
 Reporting of Deferred Mainte-
 nance Information on Air Force    D-2003-048 Reopening of               Army, Europe and Seventh
 Weapons Systems For FY 2002       Contracts in the Mechanization        Army (10/31/02)
 (11/27/02)                        of Contract Administration            A-2003-0009-FFG Identifica-
                                   Services System (1/16/03)             tion of Soldiers in Deserter or
 D-2003-034 Adjustments to the
 Intergovernmental Payments        D-2003-049 Promptness of FY           Absentee Status (11/13/02)
 Account (12/10/02)                2003 Second Quarter DoD               A-2003-0026-IMU Funding
                                   Payments to the Department of         Execution, Task Force Sinai
 D-2003-039 Naval Supply
                                   the Treasury for District of          (11/14/02)
 Systems Command Revaluation
                                   Columbia Water and Sewer
 of Inventory to Latest Acquisi-
                                   Services (1/15/03)                    A-2003-0041-IMU Living
 tion Cost (12/31/02)
                                                                         Quarters Allowance, U.S. Army,
                                   D-2003-050 Independent                Europe and Seventh Army
 D-2003-041 Independent
                                   Auditor’s Report on the Depart-       (11/20/02)
 Auditor’s Report on the Air
                                   ment of Defense FY 2002
 Force General Funds FY 2002
                                   Agency-Wide Principal Finan-          A-2003-0052-IMT Aviation
 Principal Financial Statements
                                   cial Statements (1/15/03)             Maintenance Business Practices,
 (1/6/03)
                                                                         Fort Drum, New York
                                   D-2003-054 Financial                  (11/20/02)
 D-2003-042 Independent
                                   Reporting of Deferred Mainte-
 Auditor’s Report on the Air
                                   nance Information on Army             A-2003-0050-IMH Financial
 Force Working Capital Fund FY
                                   Weapons Systems for FY 2002           Controls--Golf Course Opera-
 2002 Principal Financial
                                   (2/3/03)                              tions, Fort Belvoir, Virginia
 Statements (1/6/03)
                                                                         (11/22/02)




                                                28
Semiannual Report to the Congress                                                          Appendix A


A-2003-0073-FFG Require-            N2003-0008 Naval Audit            F2003-0004-FC4000 Air Force
ments Review of Logistics           Service Opinion on Proposed       Working Capital Fund, FY 2001
Modernization Program               FY 2002 Annual Statement of       Statement of Budgetary
(11/27/02)                          Assurance (10/31/02)              Resources - Wholesale Supply
                                                                      Overhead, Internal Control
A-2003-0028-IMH Financial           N2003-0020 The Department of      Review (11/14/02)
Controls--Golf Course               the Navy’s Stewardship of the
Operations, Fort Lesley J.          Defense Emergency Response        F2003-0003-FB4000
McNair, Washington, D.C.            Fund Appropriation (12/10/02)     Nonappropriated Fund Cash
(11/29/02)                                                            Controls (12/30/02)
                                    N2003-0038 Fiscal Year 2002
A-2003-0029-IMH Financial           Implementation of the Federal     F2003-0005-FC2000 Follow-
Controls--Bowling Operations,       Managers’ Financial Integrity     up Audit, Depot Overtime and
Fort Bliss, Texas (1/24/03)         Act at Selected Navy Activities   Leave Use (3/7/03)
                                    (3/26/03)
A-2003-0101-AMW Aged
Accounts--Army Working              Air Force Audit Agency            ACQUISITION
Capital Fund, U.S. Army Tank-
Automotive and Armaments            F2003-0002-FB3000
Command (1/24/03)                   Memorandum Report,                IG DoD
                                    Accounting for Electronic Pods
                                    and Uninstalled Engines           D-2003-003 Controls for the
A-2003-0127-FFG National
                                    (10/1/02)                         DoD Aviation Into-Plane
Science Center Special Fund
                                                                      Reimbursement Card (10/3/02)
Financial Statement, Augusta,
Georgia (1/28/03)                   F2003-0003-FB3000 Operating
                                    Materials and Supplies            D-2003-004 Acquisition of the
                                    (10/10/02)                        Advanced Deployable System
A-2003-0145-FFB Secretary of
                                                                      (10/3/02)
Defense Executive Dining
Facility Fund FY 02 Financial       F2003-0001-FC4000 Air Force
                                    Working Capital Fund FY 2001      D-2003-013 Fuel Cells of the
Statements, Office of the                                             V-22 Osprey Joint Advanced
Secretary of Defense (2/28/03)      Collections and Disbursements
                                    (10/16/02)                        Vertical Aircraft (10/24/02)
A-2003-0210-IMH Use of                                                D-2003-015 A Revised
Appropriated Funds for Morale,      F2003-0002-FC4000 Air Force
                                    Automated Civil Engineer          Acquisition Program Baseline
Welfare, Recreation and Family                                        and Threat Assessment for the
Programs (3/28/03)                  System - Real Property Controls
                                    (10/30/02)                        Chemical Demilitarizaton
                                                                      Program (FOR OFFICIAL USE
Naval Audit Service                                                   ONLY) (10/30/02)
                                    F2003-0004-FB3000 Air Force
N2003-0003 Validation of            General Fund Undistributed
Selected FY 2000 Unliquidated       Transactions (11/6/02)            D-2003-016 Material Distri-
Obligations at Space and Naval                                        bution Services Contract at the
Warfare Systems Command             F2003-0001-FB1000 Air             Defense Distribution Depot
(10/18/02)                          National Guard Obligations        Warner Robins, Georgia
                                    (11/7/02)                         (10/30/02)
N2003-0005 Commander in
Chief, U.S. Pacific Fleet Other     F2003-0003-FC4000 Follow-         D-2003-018 Validity of
Base Operating Support Pro-         up Audit, Contract Depot          Registration in the Central
gram Management (10/25/02)          Maintenance Obligations and       Contractor Registration
                                    Accrued Expenses (11/14/02)       Database (10/30/02)
N2003-0006 Implementation of
Activity-Based Cost Accounting                                        D-2003-019 DoD Contractor
in the U.S. Marine Corps                                              Subcontracting With
(10/28/02)                                                            Historically Underutilized
                                                                      Business Zones (Hubzones)
                                                                      Small Businesses (11/7/02)


                                                  29
Appendix A                                                        Semiannual Report to the Congress


D-2003-029 Contract Actions      A-2003-0072-FFG                     N2003-0030 Department of the
Awarded to Small Businesses      Government Purchase Card            Navy’s Reverse Auctioning
(11/25/02)                       Program, U.S. Army Reserve          Process (3/05/03)
                                 Readiness and Training Center,
D-2003-038 Management            Fort McCoy, Wisconsin               N2003-0032 Independent
Controls Over Proposed Prime     (12/27/02)                          Review of Maintenance and
Vendor Support for the Army                                          Fabrication, Indian Head
Apache Helicopter (12/31/02)     A-2003-0004-AMA Army                Division, Naval Surface Warfare
                                 Transformation Experiment           Center, Indian Head, MD
D-2003-052 Acquisition of the    2002 (2/3/03)                       (3/07/03)
Synthetic Aperture Radar/
Moving Target Indicator          A-2003-0156-AML Small               N2003-0033 Independent
(1/31/03)                        Purchases of Supplies and           Review of Naval Explosive
                                 Equipment, North Carolina           Ordnance Disposal Technology
D-2003-053 Navy Transition of    Army National Guard, Raleigh,       Division, Administrative
Advanced Technology              North Carolina (2/21/03)            Services, Indian Head, MD
Programs to Military                                                 (3/11/03)
Applications (2/4/03)            A-2003-0151-AMA Risk
                                 Management Program - Stryker        N2003-0035 Post Award
D-2003-056 Public/Private        Vehicle System, Office of the       Reviews for Navy Commercial
Competition for the Defense      Project Manager Brigade             Activity Studies Under OMB
Finance and Accounting Service   Combat Team (3/6/03)                Circular A-76 (3/14/03)
Military Retired and Annuitant
Pay Functions (3/21/03)          Naval Audit Service                 N2003-0037 Navy Inherently
                                                                     Governmental and Commercial
D-2003-065 Allegations           N2003-0007 Selected Aspects         Activities Inventory: Depart-
Concerning Government            of the Configuration Manage-        ment of the Navy Management
Acceptance Procedures for a      ment Process for F/A-18C and D      Decision Manpower Code L
Contractor’s Parts (3/21/03)     Aircraft (10/29/02)                 Positions (3/25/03)
Army Audit Agency                N2003-0010 Independent
                                                                     Air Force Audit Agency
                                 Review of Information
A-2003-0010-FFG Head-            Technology, Naval Surface           F2003-0001-FC3000 Space
quarters, DA Service Contracts   Warfare Center, Indian Head,        Based Infrared System
(10/17/02)                       MD (11/04/02)                       Integrated Product Team
                                                                     Participation, Phase II
A-2003-0043-AMA Followup         N2003-0016 Risk Assessment          (10/11/02)
to High Level Architecture       of Naval Systems Acquisition
Report (11/19/02)                and Acquisition Logistics –         F2003-0002-FC3000
                                 Volume I (11/14/02)                 Memorandum Report, Joint
A-2003-0053-AMM Mobile                                               Purchase Card Project - Air
Subscriber Equipment, U.S.       N2003-0017 Risk Assessment          Force (12/2/02)
Army Communications-             of Naval Systems Acquisition
Electronics Command, Fort        and Acquisition Logistics –         F2003-0001-FC1000 Wright-
Monmouth, New Jersey             Volume II (11/26/02)                Patterson AFB Meteorological
(12/6/02)                                                            Services A-76 Direct
                                 N2003-0027 Department of the        Conversion (1/16/03)
A-2003-0081-IMT Property         Navy Travel Card Program
Accountability Procedures,       (2/14/03)                           F2003-0002-FC1000
White Sands Missile Range,                                           Vandenberg AFB Weather
New Mexico (12/16/02)            N2003-0029 Management of            Observation Services Direct
                                 the Advanced Mission                Conversion (2/13/03)
                                 Computer and Display Program
                                 (2/28/03)




                                               30
Semiannual Report to the Congress                                                         Appendix A


F2003-0002-FD3000 Security          A-2003-0110-IMU Logistics         F2003-0008-FC4000
Controls Over Contractor            Civil Augmentation Program,       Programmed Depot Mainte-
Access to Air Force Installations   Camp Stronghold Freedom,          nance Materiel Support
(FOR OFFICIAL USE ONLY)             Uzbekistan (12/31/02)             (2/21/03)
(2/28/03)
                                    A-2003-0139-FFG National          F2003-0009-FC4000 Execution
F2003-0003-FC1000 72d               Defense Equipment Reporting,      and Prioritization of Repair
Communications Squadron,            Deputy Chief of Staff, G-4        Support System (2/28/03)
Network Control Center and          (2/6/03)
Automated Data Processing
Equipment, Tinker AFB OK            A-2003-0175-IME Ground            READINESS
(3/12/03)                           Equipment Contract Mainte-
                                    nance Support, I Corps and Fort
                                    Lewis, Washington (3/7/03)        IG DoD
LOGISTICS                                                             D-2003-006-T Statement of
                                    A-2003-0192-AML Develop-
                                                                      Joseph E. Schmitz, Inspector
                                    ment and Integration of
                                                                      General of the Department of
IG DoD                              Automatic Identification
                                                                      Defense to the Subcommittee on
                                    Technology into Logistics
D-2003-005 DoD Use of the                                             National Security, Veterans
                                    Processes (3/21/03)
North Atlantic Treaty Organi-                                         Affairs, and International
zation Maintenance and Supply       Naval Audit Service               Relations House Government
Agency (10/7/02)                                                      Reform Committee on Chemical
                                    N2003-0024 Contractor             and Biological Equipment:
D-2003-033 Accountability and       Logistics Support at the Naval    Preparing for the Toxic
Control of Materiel at the Naval    Air Systems Command               Battlefield (10/1/02)
Air Depot, North Island             (1/29/03)
(12/6/02)                                                             D-2003-007-T Statement of
                                    N2003-0031 Execution of Ship      Joseph E. Schmitz, Inspector
D-2003-036 Property                 Maintenance Plans (3/06/03)       General of the Department of
Accountability at Research,                                           Defense to the Subcommittee on
Development, Test, and              Air Force Audit Agency            National Security, Veterans
Evaluation Installations                                              Affairs, and International
                                    F2003-0001-FC2000 Follow-
(12/16/02)                                                            Relations House Government
                                    up Audit, Flying Hour Projec-
                                    tions Used in Spares Require-     Reform Committee on Chemical
D-2003-057 Accountability and                                         and Biological Equipment:
Control of Materiel at the Naval    ments (11/18/02)
                                                                      Preparing for the Toxic
Air Depot, Jacksonville (3/5/03)                                      Battlefield (CLASSIFIED)
                                    F2003-0003-FC2000
                                    Nonrecurring Costs for F-16       (10/1/02)
D-2003-064 Accountability and
Control of Materiel at the          Mid-Life Update Modification
                                    (FOR OFFICIAL USE ONLY)           D-2003-028 Summary Report
Warner Robins Air Logistics                                           on Homeland Defense,
Center (3/20/03)                    (1/8/03)
                                                                      Chemical and Biological
                                    F2003-0002-FC2000 T-38C           Defense, and Other Matters
Army Audit Agency                                                     Related to Counterterrorist
                                    Propulsion Modernization
A-2003-0105-IMU General             Program (1/14/03)                 Military Operations
Support Maintenance Program,                                          (CLASSIFIED) (11/25/02)
U.S. Army, Europe and Seventh       F2003-0004-FC2000 C-130
Army (12/31/02)                     Aircraft Logistics Support        D-2003-040 Chemical and
                                    (1/29/03)                         Biological Defense Individual
A-2003-0106-AML                                                       Protective Equipment in the
Methodology for Computing           F2003-0007-FC4000 Air Force       Pacific Command Area
Authorized Stockage Lists           Management of Aviation Fuel       (CLASSIFIED) (12/31/02)
(12/31/02)                          Purchases (2/13/03)




                                                  31
Appendix A                                                           Semiannual Report to the Congress


Army Audit Agency                 D-2003-011 Implementation of          D-2003-068 Army Response to
                                  Interoperability and Information      Chemical Agent Incident at
A-2003-0093-FFF Station           Assurance Policies for Acqui-         Tooele Chemical Agent
Missioning, U.S. Army             sition of DoD Weapon Systems          Disposal Facility (3/28/03)
Recruiting Command (1/15/03)      (10/17/02)
                                                                        Army Audit Agency
A-2003-0113-AMA Combined          D-2003-026 Allegations
Arms Tactical Trainer (1/28/03)   Regarding the DoD Education           A-2003-0060-IME Pollution
                                  Activity's Use of the Standard        Prevention Material Weakness
Naval Audit Service                                                     (11/29/02)
                                  Procurement System (11/25/02)
N2003-0001 Navy P-3 Aircraft                                            A-2003-0063-IME Manage-
Readiness Reporting (10/01/02)    D-2003-051 Development
                                  Testing of Prophet Mission-           ment of Installation Environ-
N2003-0011 Office of Naval        Critical Software (1/22/03)           mental Programs, U.S. Army
Intelligence Emergency Action                                           Air Defense Artillery Center and
Plans (CLASSIFIED)                D-2003-061 The Development            Fort Bliss, Texas (11/29/02)
(11/08/02)                        of the Navy Standard Integrated
                                  Personnel System (3/12/03)            A-2003-0064-IMO Privati-
N2003-0012 Verification of the                                          zation of Family Housing, Fort
Reliability and Validity of the   Army Audit Agency                     Lewis, Washington (11/29/02)
Department of the Navy’s Total    A-2003-0140-FFG Validation            A-2003-0070-IME Implemen-
Force Manpower Management         of Property Book and Unit             tation of the Military Munitions
System (TFMMS) Data               Supply Enhanced System,               Rule (12/2/02)
(11/08/02)                        Version 3.4.1 (3/25/03)
                                                                        A-2003-0092-IME Disposal
N2003-0022 Mine Counter-
                                  Naval Audit Service                   Actions at Formerly Utilized
measures Squadrons Readiness                                            Sites, U.S. Army Corps of
Reporting (12/19/02)              N2003-0019 Shipyard                   Engineers (12/19/02)
                                  Management Information
N2003-0025 Navy Cruiser Unit      System (12/09/02)                     A-2003-0115-FFC Dredging
Readiness Reporting (2/06/03)                                           Operations in the Pacific
                                  N2003-0026 Verification of the        Region, U.S. Army Corps of
N2003-0039 Navy F/A-18            Reliability and Validity of the
Combat Aviation Training                                                Engineers (1/3/03)
                                  Department of the Navy’s
(3/31/03)                         Readiness Information System          A-2003-0137-IMU Army
                                  (RIS) Data (2/13/03)                  Communities of Excellence
Air Force Audit Agency
                                                                        Program, U.S. Army Installation
F2003-0001-FD3000 Space           N2003-0028 Administration of          Management Agency, Europe
Operations Crew Force             Momentum Financial Informa-           Region (1/31/03)
Management (2/27/03)              tion System (2/27/03)
                                                                        A-2003-0138-IMU Army
                                                                        Family Housing Leasing in
INFORMATION                       INFRASTRUCTURE AND                    Germany, U.S. Army Instal-
TECHNOLOGY                        ENVIRONMENT                           lation Management Agency,
MANAGEMENT                                                              Europe Region (2/13/03)
                                  IG, DoD                               A-2003-0189-IMH Followup
IG DoD                            D-2003-001 DoD Integrated             Audit of Morale, Welfare and
                                  Natural Resources Management          Recreation Sustainment Repair
D-2003-002 Information            Plans (10/1/02)                       and Maintenance, Fort Sill,
Resource Management at the                                              Oklahoma (3/19/03)
Army Aviation and Missile         D-2003-025 DoD Alternative
Command (10/3/02)                 Fuel Vehicle Program
                                  (11/22/02)



                                                 32
Semiannual Report to the Congress                                                       Appendix A


A-2003-0190-IMH Followup            D-2003-22 FY 2002 Indepen-       D-2003-066 Controls Over the
Audit of Morale, Welfare and        dent Assessment of the DoD       Use and Protection of Social
Recreation Sustainment Repair       Subset of Information Tech-      Security Numbers Within DoD
and Maintenance, Fort Stewart,      nology Systems for Government    (3/21/03)
Georgia (3/21/03)                   Information Security Reform
                                    Reported for FY 2001 (FOR        Army Audit Agency
Naval Audit Service                 OFFICIAL USE ONLY)               A-2003-0058-AMI Information
N2003-0009 Department of the        (11/14/02)                       Management Systems for
Navy’s Environmental Training       D-2003-23 The Reserve            Special Access Programs
Program (11/01/02)                  Retirement Repository System     (11/15/02)

N2003-0021 Standardizing Pier       (FOR OFFICIAL USE ONLY)          A-2003-0157-FFB Cost
Construction for Deep Draft/        (11/15/02)                       Estimate for the Army's Top
Power Intensive Ships               D-2003-024 Information           Level Architecture-Redesign,
(12/12/02)                          Assurance Challenges - An        Chief Information Office/G-6
                                    Evaluation of Audit Results      (2/6/03)
Air Force Audit Agency
                                    Reported from August 23, 2001,
                                                                     Naval Audit Service
F2003-0001-FB4000 Brooks            through July 31, 2002 (FOR
City-Base Project - Phase II        OFFICIAL USE ONLY)               N2003-0002 Control and
(10/16/02)                          (11/21/02)                       Accountability Over Leased
                                                                     Personal Computers Within the
F2003-0006-FB4000 Follow-           D-2003-027 Government            U.S. Pacific Fleet (10/03/02)
up Audit, Environmental             Information Security Reform
Restoration Contingent              Act Implementation: Defense      N2003-0015 Department of the
Liabilities at Closed Instal-       Advanced Research Projects       Navy’s Implementation of
lations (2/28/03)                   Agency Management Support        Government Information
                                    System (11/25/02)                Security Reform Act for Fiscal
F2003-0001-FD1000                                                    Year 2001 (11/13/02)
Memorandum Report, Removal          D-2003-035 The Integrated
of Luke AFB From the Environ-       Automated Travel System          Air Force Audit Agency
mental Protection Agency's          Information Security Program
National Priority List (3/17/03)    (FOR OFFICIAL USE ONLY)          F2003-0005-FC4000 Controls
                                    (12/16/02)                       Over Access to Air Force Net-
                                                                     works and Systems (FOR
INFORMATION                         D-2003-037 Implementation of     OFFICIAL USE ONLY)
                                    Government Information           (11/19/02)
SECURITY
                                    Security Reform by the Defense
                                    Finance and Accounting Service   F2003-0006-FC4000 Air
IG DoD                              for the Standard Accounting,     Mobility Command Information
                                    Budgeting, and Reporting         Security Program and Practices
D-2003-008 Implementation of                                         (FOR OFFICIAL USE ONLY)
                                    System (FOR OFFICIAL USE
the Government Information                                           (12/2/02)
                                    ONLY) (12/19/02)
Security Reform by the Defense
Finance and Accounting Service      D-2003-055 Summary of            F2003-0004-FB4000 Valida-
for the Defense Integrated          Defense Financial and            tion of Air Force Data in the
Financial System (FOR               Accounting Service               Fiscal Year 2001 DoD Govern-
OFFICIAL USE ONLY)                  Implementation of Government     ment Information Security
(10/7/02)                           Information Security Reform      Reform Act (2/21/03)
                                    (FOR OFFICIAL USE ONLY)          F2003-0005-FB4000 Air Force
D-2003-009 Security Controls
                                    (2/21/03)                        Reserve Command Information
for the Defense Procurement
Payment System (10/11/02)                                            Security Program and Practices
                                                                     (FOR OFFICIAL USE ONLY)
                                                                     (2/21/03)



                                                  33
Appendix A                                                          Semiannual Report to the Congress


F2003-0007-FB4000 Pacific                                              D-2003-059-T Statement of
Air Forces Information Security   HEALTH CARE                          David K. Steensma, Deputy
Program and Practices (FOR                                             Assistant Inspector General for
OFFICIAL USE ONLY)                                                     Auditing, Office of the Inspector
(3/13/03)                         IG DoD                               General Department of Defense
                                  D-2003-063 Resource Sharing          to the House Committee on
                                  Between DoD and the                  Armed Services on U.S.-
HUMAN CAPITAL                     Department of Veterans Affairs       Russian Cooperative Threat
                                  (3/14/03)                            Reduction and Non-
                                                                       Proliferation Programs (3/4/03)
IG DoD                            Army Audit Agency
D-2003-031 Human Capital:                                              D-2003-070 DoD Involvement
                                  A-2003-0002-IMH Third Party          in Export Enforcement
Defense Contracting Command-      Claims, Madigan Army Medical
Washington (12/5/02)                                                   Activities (FOR OFFICIAL
                                  Center, Tacoma, Washington           USE ONLY) (3/28/03)
D-2003-032 Results of the         (10/1/02)
Survey Regarding Undue                                                 Army Audit Agency
                                  A-2003-0001-IMH Third Party
Influence on Army Component       Claims, Martin Army                  A-2003-0054-FFG Review of
Members to Join Non-Federal       Community Hospital, Fort             the Army Management Control
Entities (12/6/02)                Benning, Georgia (10/22/02)          Process (FY 2002)--An Assess-
                                                                       ment for The Secretary of the
D-2003-072 DoD Compliance         A-2003-0075-IMH Third Party          Army (11/13/02)
With the Uniformed and            Collection Program, Womack
Overseas Citizens Absentee        Army Medical Center, Fort            A-2003-0141-IMO DoD
Voting Act (3/31/03)              Bragg, North Carolina                Support to the 2001 Presidential
                                  (12/16/02)                           Inaugural (1/31/03)
Naval Audit Service
N2003-0034 Time and               A-2003-0144-IMH Third Party          A-2003-0170-FFG Review of
Attendance Practices at the       Collection Program, Walter           Army Management Control
Naval Undersea Warfare Center     Reed Army Medical Center             Process (FY 2002), Department
(3/12/03)                         (2/14/03)                            of the Army Inspector General
                                                                       (3/26/03)
N2003-0036 Use of Marine          A-2003-0185-IMH Third Party
Corps Military Personnel to       Collection Program, U.S. Army        A-2003-0172-FFG Review of
Perform Non-Military Essential    Medical Command (3/10/03)            Army Management Control
Duties (3/25/03)                                                       Process (FY 2002), 7th Infantry
                                                                       Division and Fort Carson
Air Force Audit Agency            OTHER                                (3/26/03)
F2003-0002-FB4000 Air Force                                            A-2003-0171-FFG Review of
Personnel Demographic Data        IG DoD                               Army Management Control
(12/16/02)                                                             Process (FY 2002), U.S. Army
                                  D-2003-012 Controls Over
                                                                       Space and Missile Defense
F2003-0002-FB1000                 Biological Agents at Contractor
                                                                       Command (3/28/03)
Unemployment Compensation         Facilities (CLASSIFIED)
for Former Air Force Civilian     (10/21/02)                           A-2003-0173-FFG Review of
Employees (1/16/03)                                                    Army Management Control
                                  D-2003-014 Facility-Specific
                                                                       Process (FY 2002), 24th
                                  Controls Over Biological
                                                                       Infantry Division (Mechanized)
                                  Agents (CLASSIFIED)
                                                                       and Fort Riley (3/28/03)
                                  (10/25/02)

                                  D-2003-021 Export Controls           Naval Audit Service
                                  Over Biological Agents               N2003-0013 Report 03A
                                  (CLASSIFIED) (11/12/02)              (CLASSIFIED) (11/12/02)


                                                34
Semiannual Report to the Congress                                                      Appendix A


N2003-0014 Report 03B               D-2003-6-004 Report on           Naval Audit Service
(CLASSIFIED) (11/12/02)             Quality Control Review of
                                    Grant Thornton, LLP for OMB      N2003-0004 Peer Review of the
                                    Circular A-133 Audit Report of   Air Force Audit Agency
AUDIT OVERSIGHT                     the Center for Naval Analyses    (10/21/02)
REVIEWS                             Corporation, Fiscal Year Ended   N2003-0018 Quality Control
                                    September 30, 2001 (2/10/03)     Review of Audit Report N2002-
IG DoD                              D-2003-6-005 Review of the       0003 (Revised): “Military
                                    Quality Control System at the    Construction Project Develop-
D-2003-6-001 DoD Oversight                                           ment for FY 2003 Program”
                                    National Security Agency
of Contractor Purchasing                                             (12/04/02)
                                    Inspector General Office of
Systems (11/6/02)
                                    Audits (3/13/03)                 N2003-0023 Quality Control
D-2003-6-002 Summary of                                              Review of Audit Programs
Quality Control Reviews of                                           (12/23/02)
Office of Management and
Budget Circular A-133 Audits
(11/8/02)




                                                  35
Appendix A                                        Semiannual Report to the Congress




             This page left blank intentionally




                             36
Semiannual Report to the Congress                                                                Appendix B



                                     APPENDIX B*
                      OIG DOD AUDIT REPORTS ISSUED CONTAINING
                     QUANTIFIABLE POTENTIAL MONETARY BENEFITS


                                                                          Potential Monetary Benefits
                                                                           Disallowed    Funds Put to
                       Audit Reports Issued                                        1      Better Use
                                                                             Costs
D-2003-003 Controls for the DoD Aviation Into-Plan                             N/A               $8,300,000
Reimbursement Card (10/3/02)
D-2003-005 DoD Use of the North Atlantic Treaty Organization                   N/A                 1,000,000
Maintenance and Supply Agency (10/7/02)
D-2003-016 Material Distribution Services Contract at the Defense              N/A                     4,138
Distribution Depot Warner Robins, Georgia (10/30/02)
D-2003-033 Accountability and Control of Materiel at the Naval Air             N/A               40,000,000
Depot, North Island (12/6/02)
D-2003-057 Accountability and Control of Materiel at the Naval Air             N/A               20,000,000
Depot, Jacksonville (3/5/03)
D-2003-061 The Development of the Navy Standard Integrated                     N/A               33,400,000
Personnel System (3/12/03)
D-2003-064 Accountability and Control of Materiel at the Warner                N/A               30,200,000
Robins Air Logistics Center (3/20/03)
Totals                                                                                         $132,904,138
1There
         were no OIG audit reports during the period involving disallowed costs.


* Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
Section 5(a)(6) (See Appendix A).




                                                     37
Appendix B                                        Semiannual Report to the Congress




             This page left blank intentionally




                              38
Semiannual Report to the Congress                                                                        Appendix C


                                             APPENDIX C*
                                         FOLLOWUP ACTIVITIES



       DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
           RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                              ($ in thousands)

                                                                                                     Funds Put
                                    Status                                           Number           to Better
                                                                                                        Use1
 A. For which no management decision had been made by the                                  24          $273,400
         beginning of the reporting period.
 B. Which were issued during the reporting period.                                         59            132,904
       Subtotals (A+B)                                                                     83            406,304
 C. For which a management decision was made during the reporting                          61            282,904
         period.
       (i)    dollar value of recommendations that were agreed to by
              management
              - based on proposed management action                                                       79,364
              - based on proposed legislative action
       (ii)   dollar value of recommendations that were not agreed to by                                203,5402
              management
 D. For which no management decision has been made by the end of                           22            123,400
         the reporting period.

       Reports for which no management decision was made within 6
             months of issue (as of March 31, 2003).                                        33            90,000
 1
  There were no OIG DoD audit reports issued during the period involving “disallowed costs.”
 2On
      4 audit reports with a total of potential funds put to better use of $63,800 million, management has agreed
  to take the recommended actions, but the amount of agreed monetary benefits cannot be determined until
  those actions are completed.
 3OIG DoD Report No. D-2002-091; “Accountability and Control of Materiel at the Corpus Christi Army
  Depot,” issued May 21, 2002; OIG DoD Report No. D-2002-095; “Chemical and Biological Defense
  Individual Protective Equipment in Central Command and European Command Areas,” issued May 30,
  2002; and OIG DoD Report No. D-2002-154, “Cooperative Threat Reduction Program Liquid Propellant
  Disposition Project,” issued September 30, 2002, had no management decision as of March 31, 2003, but
  were decided on April 30, 2003, April 21, 2003, and April 14, 2003, respectively.



*Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
 Section 5(a)(8)(9)&(10).




                                                         39
Appendix C                                        Semiannual Report to the Congress




             This page left blank intentionally




                            40
Semiannual Report to the Congress                                                                       Appendix D


                                             APPENDIX D
                                   CONTRACT AUDIT REPORTS ISSUED1
                                            ($ in millions)



                                          Reports          Amounts             Questioned          Funds Put to
        Type of Audit2
                                          Issued*          Examined              Costs3             Better Use
    Incurred Costs, Ops                        12,319         $50,284.8              $443.0                $52.14
    Audits, Special Audits
    Forward Pricing                             4,684         $62,063.0                    --           $2,711.35
    Proposals
    Cost Accounting                             1,049            $127.4               $12.9                      --
    Standards

    Defective Pricing                             221          (Note 6)                 $5.5                     --

    Totals                                     18,273        $112,475.2              $461.4              $2,763.4
    1This schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the
     6 months ended March 31, 2003. Both “Questioned Costs” and “Funds Put to Better Use” represent potential
     cost savings. Because of limited time between availability of management information system data and
     legislative reporting requirements, there is minimal opportunity for the DCAA to verify the accuracy of
     reported data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.
    2This schedule represents audits perfomed by DCAA summarized into four principal categories, which are

     defined as:
          Incurred Costs - Audits of direct and indirect costs charged to Government contracts to determine that
     the costs are reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation,
     Defense Federal Acquisition Regulation, and provisions of the contract. Also included under incurred cost
     audits are Operations Audits, which evaluate a contractor’s operations and management practices to identify
     opportunities for increased efficiency and economy; and Special Audits, which include audits of
     terminations and claims.
           Forward Pricing Proposals - Audits of estimated future costs of proposed contract prices, proposed
     contract change orders, costs for redeterminable fixed-price contracts, and costs incurred but not yet covered
     by definitized contracts.
           Cost Accounting Standards - A review of a contractor’s cost impact statement required due to changes
     to disclosed practices, failure to consistently follow a disclosed or established cost accounting practice, or
     noncompliance with a CAS regulation.
           Defective Pricing - A review to determine whether contracts are based on current, complete, and
     accurate cost or pricing data (the Truth in Negotiations Act).
    3Questioned costs represent costs that DCAA has questioned because they do not comply with rules,

     regulations, laws, and/or contractual terms.
    4Represents recommendations associated with Operations Audits where DCAA has presented to a contractor

     that funds could be used more effectively if management took action to implement cost reduction
     recommendations.
    5Represents potential cost reductions that may be realized during contract negotiations.
    6Defective pricing dollars examined are not reported because the original value was included in the audits

     associated with the original forward pricing proposals.
   *Applies to Army Corps of Engineers and DCAA only.




                                                        41
Appendix D                                                      Semiannual Report to the Congress




                Waivers of Advisory and Assistance Service Contracts

  A review is made of each waiver granted by the Department for advisory and assistance services
  contracts related to testing support. This review is required by Section 802, Defense
  Authorization Act for Fiscal Year 1990.

  The Department made no waivers during the period and therefore, no reviews were made by
  the OIG.




                                               42
Semiannual Report to the Congress                                                                        Appendix E


                                  APPENDIX E
        STATUS OF ACTION ON SIGNIFICANT POST-AWARD CONTRACT AUDITS1
                                ($ in thousands)



                                     Number of                  Costs
                                      Reports                 Questioned                Disallowed Costs6

   Open Reports:

       Within Guidelines2                       418                 $824,231                                  N/A7

       Overage, greater than 6                  302                 $945,280                                  N/A
       months3
       Overage, greater than                    242                 $547,441                                  N/A
       12 months4

       In Litigation5                           176               $2,370,514                                  N/A

   Total Open Reports                        1,138                $4,687,466                                  N/A
   Closed Reports                               470                 $545,773                   $190,015 (34.8%)
   All Reports                               1,608                $5,233,239                                  N/A
   1Thisschedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing,
   and noncompliance with the Cost Accounting Standards as reported by the Army, Navy, Air Force, Defense
   Contract Management Agency, and TRICARE. Contract audit followup is reported in accordance with DoD
   Directive 7640.2, “Policy for Followup on Contract Audit Reports.” Because of limited time between availability
   of the data and reporting requirements, there is minimal opportunity to verify the accuracy of the reported data.
   2
    These reports are being processed within the time frames established by OMB Circular A-50, Audit Followup, and
    DoD Directive 7640.2.
   3
    OMB Circular A-50 requires that audit reports be resolved (the contracting officer decides on a course of action)
    within 6 months after report issuance.
   4
    DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date of
    issuance. Disposition is achieved when the contractor implements audit recommendations, the contracting officer
    negotiates a settlement with contractor, or the report is superseded.
   5
    Of the 176 reports in litigation, 16 are under criminal investigation.
   6
    Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
   7
    N/A (not applicable)




                                                         43
Appendix E                                        Semiannual Report to the Congress




             This page left blank intentionally




                            44
    If you suspect Fraud, Waste, Abuse, or Mismanagement in
         the Department of Defense, please contact us at:
                      Hotline@dodig.osd.mil
                                or
                      www.dodig.osd.mil/hotline
                                or call:
                             800-424-9098




The Hotline is available 24 hours per day. The caller can remain anonymous.
             If you prefer, you may send written complaints to:

                      Office of the Inspector General
                          Department of Defense
                           400 Army Navy Drive
                      Arlington, Virginia 22202-4704
